         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                       Catalyst for Improving the Environment


Public Liaison Report




       Corrective Actions Were Generally
       Implemented at Stauffer Chemical
       Company Superfund Site,
       Tarpon Springs, Florida
       Report No. 08-P-0264

       September 16, 2008
Report Contributors:                Larry Dare
                                    Christine Baughman
                                    John Coll




Abbreviations

CIC            Community Involvement Coordinator
EPA            U.S. Environmental Protection Agency
ESD            Explanation of Significant Differences
OIG            Office of Inspector General
ROD            Record of Decision
RPM            Remedial Project Manager
SMC            Stauffer Management Company




Cover photo:     Photo of the South Parcel, Stauffer Chemical Company Superfund Site,
                 Tarpon Springs, Florida (EPA OIG photo).
                        U.S. Environmental Protection Agency                                                    08-P-0264
                                                                                                        September 16, 2008
                        Office of Inspector General


                        At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review              Corrective Actions Were Generally
The Office of Inspector
                                    Implemented at Stauffer Chemical Company
General (OIG) evaluated the         Superfund Site, Tarpon Springs, Florida
actions taken by the U.S.
Environmental Protection             What We Found
Agency (EPA) Region 4 staff
in response to a June 2004
                                    Under a consent decree, the potentially responsible party is preparing the design
OIG report concerning the
Stauffer Chemical Company           for the EPA-approved cleanup actions. In December 2007, the design was
Superfund site in Tarpon            30 percent complete. As recommended in OIG Report No. 2004-P-00018,
Springs, Florida.                   Review of Actions at Stauffer Chemical Company Superfund Site, Tarpon Springs,
                                    Florida, June 3, 2004 (OIG 2004 Report), this draft design incorporated the
Background                          information and recommendations from the additional site studies.

The Tarpon Springs plant was        Also as recommended in the OIG 2004 Report, Region 4 staff revised the
used from 1947 to 1981 to           community involvement plan for the site to include some community activity
process phosphorous. Even           during the design phase. These activities are being performed. For example,
though the plant was removed,       public meetings were held in October 2005 and June 2007. In addition, when
contaminated soil and material      issuing the May 2007 Explanation of Significant Differences to change the
remained at the 130-acre site.      cleanup actions proposed, Region 4 staff complied with EPA requirements.
EPA approved leaving these          Although EPA could have asked for public input before making this decision, it
contaminants there, after           does not require formal public participation during the remedy design phase.
consolidating and solidifying
them, and then installing a         In November 2004, to comply with a recommendation in the OIG 2004 Report, a
cap. In June 2004, the OIG          Region 4 official instructed the staff to determine whether karst was present at a
identified actions needed to        cleanup site and, if so, whether it would impact the site. Karst, an area of
allay public concerns about         limestone formations that often contains sinkholes, is widespread in Florida.
the cleanup actions proposed        Some citizens believed that sinkholes at the Stauffer Chemical Company Tarpon
for this site and for other sites   Springs plant could cause any structures at the Superfund site to settle when the
with similar geological traits,     underlying ground sinks, and could create ready pathways for pollutants to travel
and to improve citizen              between the surficial and Floridan aquifers.
involvement in the process.
                                    We reviewed six sites to determine if recently-started site investigations included
                                    work to identify the presence and impact of karst. Although three of the six sites
For further information,            are not in karst-prone areas, three sites are so located. Earlier studies at these three
contact our Office of               sites had not evaluated the potential impact of karst. More recent studies are
Congressional and Public            addressing the karst issue.
Liaison at (202) 566-2391.

To view the full report,
                                     What We Recommend
click on the following link:
www.epa.gov/oig/reports/2008/
20080916-08-P-0264.pdf              We have no recommendations for corrective action.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 16, 2008

MEMORANDUM

SUBJECT:               Corrective Actions Were Generally Implemented at Stauffer
                       Chemical Company Superfund Site, Tarpon Springs, Florida
                       Report No. 08-P-0264


FROM:                  Nancy E. Long
                       Acting Assistant Inspector General for Congressional and Public Liaison

TO:                    J. I. Palmer, Jr.
                       Regional Administrator
                       Region 4


This is our report on the subject review conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). It describes efforts by EPA Region 4 to
address the findings in an earlier OIG report about the Stauffer Chemical Company Superfund
site, Tarpon Springs, Florida. This report represents the opinion of the OIG.

On August 1, 2008, we issued a draft of this report for review and comment. You agreed with
our conclusions.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $165,151.

Action Required

Because this report contains no recommendations, you are not required to provide a written
response; we are closing this report upon issuance. We have no objection to the further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-0918;
or Eric Lewis, Director for Special Reviews and Inspections, at 202-566-2664 or
lewis.eric@epa.gov.
Corrective Actions Were Generally Implemented                                                                              08-P-0264
at Stauffer Chemical Company Superfund Site,
Tarpon Springs, Florida



                                  Table of Contents

Chapters
   1    Introduction ..........................................................................................................     1

                Purpose .........................................................................................................    1
                Background ...................................................................................................       1
                Scope and Methodology ................................................................................               2

   2    Draft Design Incorporated Results of Additional Studies .................................                                    3

                Prior Report Made Recommendations Concerning the Design .....................                                       3
                Region 4 Completed the Corrective Actions ..................................................                        3

   3    Community Involvement Met Requirements While Missing Opportunities.....                                                     4

                Prior Report Recommended Continuing Community Involvement ................                                          4
                Region 4 Completed the Corrective Actions ..................................................                        4
                Region 4 Missed Opportunities to Significantly Involve the Community ........                                       5

   4    Potential Impact of Karst Was Investigated .......................................................                           8

                Prior Report Recommended Guidance on Karst Investigations ....................                                      8
                Region 4 Completed the Corrective Actions ..................................................                        8
                Karst Geology Was Addressed .....................................................................                   8

   Status of Recommendations and Potential Monetary Benefits.................................                                       10



Appendices

   A    Region 4 Response to Draft Report.....................................................................                      11

   B    Distribution ...........................................................................................................    12
                                                                                   08-P-0264




                                Chapter 1
                                 Introduction

Purpose

          The U.S. Environmental Protection Agency (EPA) Office of Inspector General
          (OIG) reviewed the actions taken by Region 4 in response to the EPA OIG Report
          No. 2004-P-00018, Review of Actions at Stauffer Chemical Company Superfund
          Site, Tarpon Springs, Florida, June 3, 2004 (OIG 2004 Report). During this
          follow-up review, the objectives were:

          1. Did the responsible party incorporate the results from the additional studies
             into the remedial design for the site?

          2. Did Region 4 implement the actions in the revised community relations plan
             and, if so, does the community believe it is better informed about site
             activities and more involved in making decisions concerning the site?

          3. Have recent remedial investigation/feasibility studies performed in Region 4
             included geophysical and related groundwater studies for karst?

Background

          The Stauffer Chemical Company (Tarpon Springs plant) Superfund site was used
          to process elemental phosphorus from 1947 until 1981. Most of the facilities have
          been dismantled. The site property, about 130 acres, is located on Anclote Road
          in Tarpon Springs, Pinellas County, Florida. It lies along the Anclote River
          2 miles upstream from the Gulf of Mexico. Land use in the surrounding area
          includes light industrial, commercial, and residential.

          The site was placed on the Superfund program’s National Priority List in May
          1994. Based on evaluations of the contamination at the site, in July 1998, EPA
          issued a Record of Decision (ROD) identifying how the site would be cleaned up.
          Among the actions proposed was consolidating contaminated material and soil in
          various areas of the site (including the main pond area), solidifying the pond
          material and contaminated soil below the water table in the consolidation areas,
          and placing a cap over these areas.

          In accordance with a consent decree, Stauffer Management Company (SMC)
          subsequently conducted additional studies to further ensure that the selected
          remedy was safe and would provide long-term protection of human health and the
          environment over the life of the remedy. The findings of these studies supported
          the selected remedy outlined in the ROD and provided a further technical basis
          for the design of the cleanup actions. SMC, with oversight from EPA, began the


                                           1
                                                                                  08-P-0264


         design work about October 2005 and expected to complete the designs in May
         2006.

         Due to citizen complaints and concerns, as well as related letters from a Florida
         congressional representative, the EPA National Ombudsman (then located in the
         Office of Solid Waste and Emergency Response) started a review of EPA’s
         actions at the site. This review was completed by the OIG and resulted in the
         OIG 2004 Report. The Regional Administrator for EPA’s Region 4 took
         corrective actions recommended in the OIG 2004 Report. He identified these
         actions in memoranda dated October 2004 and December 2005.

Scope and Methodology

         We conducted the follow-up review from October 2007 through April 2008. As
         part of our work, we reviewed information from EPA’s site file for the Stauffer
         Chemical Company (Tarpon Springs plant) Superfund site, especially technical
         reports completed after June 2004; EPA’s financial management system; and
         various Internet Websites, such as EPA's official Website for the public, the
         Website of a firm doing work at the Superfund site, and MapQuest®. We also
         interviewed key officials in Region 4 who worked on the Superfund site and other
         EPA staff, as well as a representative from each of three community
         organizations.

         In addition, we reviewed documents in EPA’s files related to six other sites at
         which a remedial investigation or feasibility study was started after June 2004.
         The purpose of this work was to determine if these studies included appropriate
         karst-related components.

         We performed this review in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States, except that we limited our
         review of management controls and compliance to those directly related to the
         objectives of the audit.

         On August 1, 2008, the OIG issued a draft report to the Regional Administrator
         for Region 4 to review and comment. The Regional Administrator responded on
         August 29, 2008. He agreed with the conclusions. We include the Regional
         Administrator’s memorandum in Appendix A.




                                          2
                                                                                 08-P-0264




                               Chapter 2
             Draft Design Incorporated Results
                    of Additional Studies
          The Region 4 staff completed the corrective actions regarding the selected remedy
          that were recommended in the OIG 2004 Report. Based on the design at the
          30-percent stage, SMC properly incorporated the cautionary recommendations
          and results of the additional site studies.

Prior Report Made Recommendations Concerning the Design

          The OIG 2004 Report noted that the proposed cleanup action was only feasible if
          its design incorporated the cautionary recommendations included in the
          2001-2003 geophysical study, and if additional groundwater characteristics
          information and analysis lacking in the 2003 draft groundwater report were
          addressed. The OIG recommended that the cautionary recommendations be
          implemented and that groundwater characteristics be adequately defined for
          remedial design.

Region 4 Completed the Corrective Actions

          The Regional Administrator agreed to these recommendations. In December
          2007, SMC’s contractor submitted the Design Criteria Report (submitted at the
          30-percent stage) for the cleanup work. Based on comparing the design report to
          the previous studies, we concluded the design had taken into account the
          recommendations and conclusions of the prior studies. The Region 4 Remedial
          Project Manager (RPM) for the site is currently reviewing the 90-percent design
          report. He sent this report to selected community groups and the local
          information repository for the site.




                                          3
                                                                                 08-P-0264




                               Chapter 3
      Community Involvement Met Requirements
           While Missing Opportunities
          The Region 4 staff completed the corrective actions recommended in the OIG
          2004 Report concerning community involvement, but could have allowed the
          community to be more involved in the change to the ROD that was made in
          May 2007. However, the actions of Region 4 personnel complied with EPA’s
          requirements for processing such changes.

Prior Report Recommended Continuing Community Involvement

          Although Region 4 generally met the community involvement requirements, a
          segment of the community was dissatisfied with the EPA efforts and the remedy
          selected in the ROD. Some members of the community believed Region 4 had
          failed to be open and frank in its discussions and did not take the community
          concerns seriously. In several instances, Region 4 did not promptly address
          community concerns. As a result, some community members were skeptical
          about EPA’s decisions, particularly concerning the remedy selected. EPA
          requires no formal public participation during the remedy design phase, so
          community members doubted that their remaining concerns would be addressed.
          The OIG recommended that EPA Region 4 revise its January 1993 community
          relations plan to include site visits during the design phase and obtaining
          community input on design documents.

Region 4 Completed the Corrective Actions

          Region 4 staff adopted a revised community involvement plan for the site in
          November 2005. Among other things, it required the EPA RPM and Community
          Involvement Coordinator (CIC) to conduct public availability sessions during the
          design phase to provide the community an opportunity to learn about key
          milestones in the design process, and provide EPA with input on the plan. Public
          availability sessions were held in October 2005 and June 2007. Also, according
          to the three community members we contacted, the RPM promptly responded
          when contacted.

          The October 2005 meeting provided the community with information about the
          design process that produced the plans and specifications for the cleanup. The
          design process included, among other things, a pilot test for solidifying the
          contaminated soil in the old wastewater ponds. This pilot test evaluated the
          equipment and methods proposed for the final cleanup.


                                          4
                                                                                     08-P-0264




          The June 2007 meeting provided the community with information about a
          significant change to the ROD. In May 2007, the Region 4 Acting Division
          Director for the Superfund Division signed an Explanation of Significant
          Differences (ESD). Based on the experience from the pilot study for the
          solidification component of the selected remedy, EPA decided to use a
          groundwater cut-off wall instead of solidification. The cut-off wall would be
          installed around the perimeter of the waste ponds to channel horizontal
          groundwater flow around the contaminated pond sediments, thus reducing the
          potential for contaminants to move.

Region 4 Missed Opportunities to Significantly Involve the
Community

          Although Region 4 staff complied with EPA requirements concerning the ESD,
          they missed some opportunities to inform and involve the community. As
          required, Region 4 published notices in local newspapers about the ESD. Also, as
          noted above, they held a public availability session about the ESD; such a
          meeting, although recommended, was not required. Community input is not
          required by EPA guidance documents on processing an ESD. However, over a
          year elapsed between when the need for a change was recognized and the ESD
          was signed. During that period, the RPM informed the representative of one
          community group that a change was being considered. Other community groups
          were not informed and asked for input.

          The solidification pilot test was ended in February 2006 because of a fire at the
          site. The fire resulted from a reaction between the elemental phosphorus below
          ground and the cement mixture used for solidification during the pilot test.
          Besides this adverse reaction, the pilot test identified metal debris in portions of
          the former waste ponds; the debris interfered with the mixing operation required
          for solidifying contaminated material. Because of these implementation problems
          for the solidification component, i.e., the fire and debris, Region 4 determined that
          it was necessary to change this part of the proposed cleanup action. Alternatives
          were considered at a meeting in May 2006. The proposed change was described
          in documents prepared by SMC’s contractor in June 2006 and August 2006. In
          November 2006, the contractor gave Region 4 more information about the
          proposed change. Collectively, this was the information on which Region 4 based
          its decision.

          The Region 4 staff missed opportunities to significantly involve the community,
          as follows:

                Except for one community organization, in February 2006, Region 4 staff
                 did not provide information to community members about the fire at the
                 site and reassure them about their safety. Representatives from two other



                                            5
                                                                          08-P-0264


       community organizations with whom we spoke indicated they had
       expected Region 4 to tell them about the fire.

      In May 2006, Region 4 staff decided to consider alternatives to solidifying
       material at the site. With the exception of one community group, the RPM
       did not inform the community that EPA was seeking alternatives and the
       design work might be delayed.

      By January 2007, Region 4 staff had information on the alternatives and
       could have provided it to the community for their input. Between then and
       May 2007, Region 4 staff were preparing and processing the ESD. The
       ESD was signed on May 24, 2007. This document was Region 4’s first
       official notice to the community about the fire, its effect on the selected
       remedy, alternative remedies considered, and the decision reached by
       Region 4 to change the remedy.

The Meyers Cove Homeowners Association was the exception to the above.
Meyers Cove is the residential area closest to the site. Because of this proximity,
the RPM sent the association representative e-mail updates on the situation at the
site in February 2006, May 2006, December 2006, and May 2007.

Given the extent of community concerns about this site in the past, Region 4 staff
might have kept the community better informed and involved. Although two of
the community members with whom we spoke were satisfied with the level of
communication from Region 4, one believed Region 4’s communication
continued to be of poor quality. This concern was reflected in newspaper articles
about the June 2007 public meeting, one of which indicated some community
members believed EPA did not listen to their questions, suggestions, and
critiques.

Region 4 staff offered several reasons for not involving the community earlier.

      Concerning the fire, two articles appeared about it in the local newspaper.
       Since the Region 4 staff considered these articles factually accurate, a
       Superfund Fact Sheet was unnecessary.

      Concerning the change to the selected remedy, Region 4 staff wanted to
       determine the appropriate technical solution before presenting it to the
       community. They believed the decision they reached was the only viable
       option. In addition, they did not consider the remedy change to be a major
       one.

      Following the June 2007 public meeting, the RPM responded to written
       comments submitted by a member of the pubic and posted this response to
       EPA’s Website for the site. The RPM also provided information to some
       community members in response to their questions about similar sites.



                                 6
                                                                      08-P-0264


       Additionally, Region 4 obtained the services of an expert identified by
       community members to review the design. Thus, Region 4 staff addressed
       the questions, suggestions, and critiques of community members.

Although this report does not contain recommendations, we believe the RPM and
CIC should be more proactive in communicating with community members. This
is particularly important following emergencies (like the fire) and when
contemplating changes to the selected remedy, such as substituting the retaining
wall for solidification. As noted in the April 2005 Superfund Community
Involvement Handbook, “Most communities accept a remedy, even if they are not
completely satisfied with it, provided they understand how the decision was
reached and had a meaningful part in reaching the decision.”




                                7
                                                                                    08-P-0264




                                Chapter 4
       Potential Impact of Karst Was Investigated
          The Region 4 staff completed the corrective actions recommended in the OIG
          2004 Report about karst investigations. Of six sites with recently-started remedial
          investigations, the three located in karst-prone areas included studies to evaluate
          the impact of karst.

Prior Report Recommended Guidance on Karst Investigations

          In the OIG 2004 Report, we concluded that EPA had not adequately supported the
          remedy presented in the 1998 ROD. Specifically, EPA should have ensured that
          the additional technical studies performed in 2001-2003 were completed earlier in
          the process. Karst, an area of limestone formations that often contains sinkholes
          and is widespread in Florida, was not discussed in any of the study reports prior to
          2000. Some citizens believed that sinkholes at the Stauffer Chemical Company
          Tarpon Springs plant could cause any structures at the Superfund site to settle
          when the underlying ground sinks, and could create ready pathways for pollutants
          to travel between the surficial and Floridan aquifers. According to the OIG’s
          hydrogeologist, the karstic nature of the site should have been integrated into
          understanding the hydrogeologic framework of the site from 1992 onward. The
          OIG recommended that EPA Region 4 require that any future studies in known
          karst areas include geophysical and related groundwater studies for karst.

Region 4 Completed the Corrective Actions

          Region 4 required, in a memorandum dated November 2004, additional attention
          at sites in karst-prone areas. In this memorandum, the Region 4 Director, Waste
          Division, emphasized to his staff the importance of determining the potential for
          karst at a cleanup site and its possible impact, especially on drinking water
          sources. Thus, early in the investigation, the site location should be compared to
          historical geology information, as well as site-specific hydrogeological
          information. Region 4 employs hydrogeologists in the Technical Services
          Section, Superfund Division; RPMs may consult with them regarding site
          conditions. They are involved in karst-related work at the Anniston Army Depot
          Superfund site in Alabama.

Karst Geology Was Addressed

          Recent studies address the potential impact of karst. We reviewed actions at six
          sites with recently started studies to determine if they included work to identify
          the presence and impact of karst. Three of these sites are located in karst-prone


                                           8
                                                                           08-P-0264


areas, and three are not. Thus, karst-related studies would not be appropriate for
the three latter sites. For one of the other three sites (Coleman-Evans Wood
Preserving site, Whitehouse, Florida), the Florida Department of Community
Affairs evaluated the potential risks from sinkholes as part of a local
comprehensive plan. It concluded the karst/sinkhole issue did not appear to be a
problem in Duval County; the risk from sinkholes was considered to be very low.

The other two sites located in karst-prone areas were Alaric Area Groundwater
Plume, Tampa, Florida; and Cabot-Koppers in Gainesville, Florida. For these two
sites, earlier studies had not evaluated the potential impact of karst. However,
more recent studies of the sites have addressed the potential impact of karst. For
one site, specific karst terrain information was used to develop the work plan to
install wells. At the other site, an additional study confirmed the presence of karst
terrain. Thus, work at Region 4 Superfund sites in known karst areas is including
geophysical and related groundwater studies for karst.




                                  9
                                                                                                                          08-P-0264



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                            10
                                                                                                                          08-P-0264


                                                                                                                        Appendix A

                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                               REGION 4 ATLANTA FEDERAL
                                              CENTER 61 FORSYTH STREET
                                              ATLANTA, GEORGIA 30303-8960



                                                    AUG 29 2008

MEMORANDUM

 SUBJECT:           Response to Draft Public Liaison Report: Corrective Actions Were Generally
                    Implemented at Stauffer Chemical Superfund Site, Tarpon Springs, Florida
                    Assignment No. OCPL-FY07-0006
 FROM:
                    J. I. Palmer, Jr. /s/
                    Regional Administrator
 TO:                Eric Lewis, Director
                    US EPA, Office of Inspector General
                    Office of Congressional and Public Liaison

       Thank you for the opportunity to comment on the draft report regarding the Stauffer
Chemical Superfund Site in Tarpon Springs, Florida (OIG Assignment No. OCPL-FY07-0006).
The OIG staff demonstrated a great deal of professionalism during the evaluation and
preparation of this report.

        We greatly appreciate your acknowledgement of the progress we have made in addressing
the concerns raised in the June 2004 report. As noted in your report, the design criteria report
takes into account the results from the prior geophysical and groundwater studies at the site. You
have determined Region 4 staff has addressed the questions and suggestions that the community
raised at the June 2007 public meeting. While the Remedial Project Manager has responded to
inquiries from the public, issued an ESD fact sheet, and held a public meeting during the last year,
we will look for ways to improve communications with the public. Region 4 will continue to
enhance its already robust community involvement efforts, particularly as we transition from the
design phase and into construction. Finally, as noted in your report, Region 4 is including
appropriate geophysical and groundwater studies at similar sites with karst conditions.

       We do not have any further comments regarding this report. Please contact Franklin Hill,
Director of the Region 4 Superfund Division, at (404) 562-8583, if you have additional questions
or need additional information.

cc: Terry Dempsey, R4 OIG/GAO Liaison



                                                                  11
                                         Internet Address (URL) • http://www.epa.gov
             Recycled/Recyclable • Printed with Vegetable Oil Based Inks on Recycled Paper (Minimum 30% Postconsumer)
                                                                              08-P-0264


                                                                            Appendix B

                                    Distribution

Office of the Administrator
Regional Administrator, Region 4
Chief, Superfund Remedial and Site Evaluation Branch, Region 4
Chief, Superfund Remedial Section A, Region 4
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 4
Public Affairs Officer, Region 4
Deputy Inspector General




                                             12
